No. 19A
IIN
N THE
THE

Supreme Court
the liniteb
United iptato
States
'upreme
Court of
of the
ROBERT C. STEINER
STEINER AND WENDY
WENDY STEINER-REED,
STEINER-REED,
ROBERT
Applicants,
v.
UTAH STATE
STATE TAX
TAX C
OMMISSION,
UTAH
COMMISSION,
Respondent.

APPLICATION FOR AN EXTENSION OF TIME TO FILE A
PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF UTAH

ALEXANDER B. BOWERMAN
BOWERMAN
ALEXANDER
LOVELLS
HOGAN L
OVELLS US LLP
HOGAN
1735 Market Street
23rd Floor
Philadelphia, PA 19103

NEAL KUMAR
KUMAR KATYAL
KATYAL
NEAL
Counsel of Record
S
EAN
MAROTTA
SEAN MAROTTA
REEDY C. SWANSON
SWANSON
REEDY
HOGAN LOVELLS
LOVELLS US LLP
HOGAN
555 Thirteenth Street, N.W.
Washington, DC 20004
(202) 637-5600
neal.katyal@hoganlovells.com

October 17, 2019

Counsel for Applicants

APPLICATION
To the Honorable Sonia Sotomayor, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Tenth Circuit:
Pursuant to Rule 13.5 of the Rules of this Court and 28 U.S.C. § 2101(c), applicants Robert C. Steiner and Wendy Steiner-Reed respectfully request a 30-day
extension of time, to and including December 12, 2019, within which to file a petition for a writ of certiorari to review the decision of the Supreme Court of Utah in
this case.
1.
1.

The Supreme Court of Utah issued its decision on August 14, 2019.

Comm’n, No. 20180223 (Appendix A). Unless extendSee Steiner v. Utah State Tax Comm'n,
ed, the time to file a petition for certiorari will expire on November 12, 2019. This
application is being filed more than ten days before the petition is currently due.
See Sup. Ct. R. 13.5. The jurisdiction of this Court will be invoked under 28 U.S.C.
§ 1257(a).
2.

The Utah Supreme Court’s
Court's decision below directly contradicts this

Court’s
Court's holdings in Comptroller of the Treasury of Maryland v. Wynne, 135 S. Ct.
1787 (2015), and Kraft General Foods, Inc. v. Iowa Department of Revenue & Finance, 505 U.S. 71, 80 (1992). First, although Wynne found no reason "why
“why the
dormant Commerce Clause should treat individuals less favorably than corporations,” 135 S. Ct. at 1797, the Utah Supreme Court held that "it
“it is clear that they
tions,"
can be treated differently,”
differently," App. 16. Applying that principle, the Utah Supreme
Court held that Utah could "tax
“tax the entirety of [a taxpayers']
taxpayers’] foreign income based"
based”

1
1

“on their residency on the state,"
state,” following the dissent in Wynne. Id. at 17
solely "on
(citing 135 S. Ct. at 1813 (Ginsburg, J., dissenting)). And the Utah Supreme Court
upheld a Utah law treating income earned in foreign countries less favorably than
income earned in Utah or another State, id. at 18-19, even though this Court held in
“imposes a burKraft that a state law violates the Foreign Commerce Clause if it "imposes
den” on foreign commerce "that
“that it does not impose on domestic"
domestic” commerce. 505 U.S.
den"
at 80.
3.

The Steiners are married Utah taxpayers who filed joint tax returns

for the 2011, 2012, and 2013 tax years. App. 2. Robert Steiner is an S shareholder
with taxable income from an S corporation with subsidiaries that pass their income
through to him for tax purposes, several of which are foreign entities with foreign
Steiners’ taxable
business operations. Id. at 3. Accordingly, a significant portion of Steiners'
income comes from foreign commerce.
4.

Utah allows a credit for income taxes paid in other states but does not

allow a credit for income taxes paid to foreign countries. Id. The Steiners claimed
an equitable adjustment excluding their foreign income, arguing that failure to offer
such an adjustment ran afoul of the foreign dormant Commerce Clause. See id. at
Utah’s Tax Court allowed that equitable adjustment in light of the Steiners'
Steiners’
3-4. Utah's
constitutional arguments. Id. at 5.
5.11

1

1 The

Steiners also argued that Utah's
Utah’s failure to apportion their domestic income
violated the domestic dormant Commerce Clause. App. 4-5. The Utah Supreme
Court rejected that argument (id. at 12-14) and the Steiners will not be seeking review of that holding in this Court.
2

5.

The Utah Supreme Court reversed in relevant part.

Id. at 2. The

court first rejected the notion that the foreign dormant Commerce Clause has any
application to the taxation of individual, rather than corporate, income, notwithstanding this Court’s
Court's contrary holding in Wynne regarding the domestic dormant
Commerce Clause. The Utah Supreme Court explained that it refuses to "break
“break
new ground”
“deground" in Commerce Clause jurisprudence: It has announced that it will "deextend” this Court’s
“into new territory—even
cline to extend"
Court's Commerce Clause precedent "into
in ways that might seem logical in other jurisprudential realms."
realms.” Id. at 6, 14 (citing
Comm’n, 364 P.3d 1036 (Utah 2015)). Because this
DIRECTV v. Utah State Tax Comm'n,
Court has not yet addressed "the
“the Dormant Foreign Commerce Clause”
Clause" in a case in“an individual taxpayer (or S corporation shareholder),"
shareholder),” the Utah Supreme
volving "an
Court assumed the Clause places no limits on the States'
States’ power in such cases. Id.
at 15. Thus, despite Wynne's
Wynne’s conclusion that residency alone "says
“says nothing about
whether [a] tax violates the Commerce Clause,”
Clause," 135 S. Ct. at 1799, the Utah Supreme Court authorized the State to "tax
“tax the entirety of the Steiners'
Steiners’ foreign income
state,” App. 17.
based on their residency in the state,"
6.

Utah’s system, which
The Utah Supreme Court also disagreed that Utah's

treats foreign income less favorably than domestic income, discriminates against
foreign commerce. The Court conceded that its holding would "possibly
“possibly subject the
tax” on their foreign income. Id. at 18. The Court instead beSteiners to a double tax"
lieved that the federal credit for foreign taxes adequately addressed the problem,

3

“be offset by other taxes imposed
even though Kraft held that discrimination cannot "be
* * * by other States and by the Federal Government.”
Government." 505 U.S. at 71.
The Utah Supreme Court justified its refusal to follow Kraft by invoking the
principle of "passive
“passive congressional approval,”
approval," App. 18 & n.18, announced in Barclays Bank PLC v. Franchise Tax Board of California, 512 U.S. 298 (1994). But the
court did not explain how the passive approval principle in Barclays, which ad“otherwise constitutional,”
dressed a tax that was "otherwise
constitutional," 512 U.S. at 323, could be extended to the situation here, where the tax flunks the foreign dormant Commerce
Clause.
7.

The Utah Supreme Court’s
Court's decision directly conflicts with this Court’s
Court's

precedent on a weighty federal issue. "The
“The Foreign Commerce Clause recognizes
that discriminatory treatment of foreign commerce may create problems, such as
whole.”
the potential for international retaliation, that concern the Nation as a whole."
Kraft, 505 U.S. at 79. Moreover, the Utah Supreme Court’s
Court's stated refusal to apply
this Court’s
“logical” to do so
Court's Commerce Clause precedent where it is otherwise "logical"
(App. 6) undermines our federal system. See Cooper v. Aaron, 358 U.S. 1, 18 (1958).
Court’s jurisThis Court’s
Court's review is accordingly needed to bring the Utah Supreme Court's
prudence back into alignment with this Court’s
Court's and restore uniformity on this important federal issue.
8.

The Steiners have retained Neal Kumar Katyal of Hogan Lovells US

LLP as counsel to file a petition for writ of certiorari. Over the next several weeks,
counsel is occupied with briefing deadlines and arguments for a variety of matters,

4

including: (1) a reply brief in City of Oakland v. Wells Fargo & Co., No. 19-15169
(9th Cir.), due October 25; (2) summary judgment briefing in United States ex rel.
Krahling v. Merck & Co., Inc., No. 10-cv-4374 (E.D. Pa.), due October 25; (3) a petition for rehearing en banc in Enigma Software Group USA, LLC v. Malwarebytes,
Inc., No. 17-17351 (9th Cir.), due October 28; (4) a merits reply brief in McKinney v.
Arizona, No. 18-1109 (S. Ct.), due November 25, with oral argument scheduled on
December 11; and (5) a merits response brief in Romag Fasteners Inc. v. Fossil Inc.,
No. 18-1233 (S. Ct.), due November 26. Applicants request this extension of time to
permit counsel to research the relevant legal and factual issues and to prepare a petition that fully addresses the important questions raised by the proceedings below.
For these reasons, Applicants respectfully request that an order be entered
extending the time to file a petition for certiorari to and including December 12,
2019.
Respectfully submitted,

ALEXANDER B. BOWERMAN
HOGAN LOVELLS US LLP
1735 Market Street
23rd Floor
Philadelphia, PA 19103

NEAL KUMAR KATYAL
Counsel of Record
SEAN MAROTTA
REEDY C. SWANSON
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, DC 20004
(202) 637-5600
neal.katyal@hoganlovells.com

October 17, 2019

Counsel for Applicants

5

